No.
In The
Supreme Court of The United States
Anthony I. Provitola and Kathleen A. Provitola, Petitioners pro se,
vs.
COMMISSIONER OF INTERNAL REVENUE, Respondent.
On Petition For a Writ of Certiorari to the
United States Court of Appeals for the Eleventh Circuit
CERTIFICATE OF COMPLIANCE
We, Anthony I. Provitola and Kathleen A. Provitola, Petitioners, pro se hereby certify that
the Petition for a Writ of Certiorari contains 2295 words using a 12 pt. Century font, excluding the
parts of the petition that are exempted by Supreme Court Rule 33.1(d).
We declare under penalty of perjury that the foregoing is true and correct.
Executed on September 8,2021

Kathleen A. Provitola,
Petitioner pro se
Post Office Box 2855
DeLand, Florida 32721
Telephone: (386) 736-0809
Email: kprovitola@cfl.rr.com

Anthony I. Provitola
Petitioner pro se
Post Office Box 2855
DeLand, Florida 32721
Telephone: (386) 734-5502
Email: aprovitola@cfl.rr.com

